App. 1
APPENDIX
List of Amici Curiae
Professor Henry Allen Blair, Robins Kaplan Distinguished Professor of Litigation Skills and International Dispute Resolution, John H. Faricy Professor of
Empirical Legal Research, Senior Fellow, Dispute Resolution Institute, Mitchell Hamline School of Law
Professor Sarah Rudolph Cole, Michael E. Moritz
Chair in Alternative Dispute Resolution, Moritz College of Law, Ohio State University
Professor Angela Downes, Assistant Director of Experiential Education, UNT Dallas College of Law
Richard D. Faulkner, J.D., LL.M., F.C.I.Arb.,
Dip.Intnl.Com.Arb, Of Counsel to Charles Bennett
Law, PLLC, Dallas, TX. Arbitrator, arbitration author,
counsel and scholar.
Professor Clark Freshman, Professor of Law, University of California, Hastings College of Law
Professor Jill I. Gross, Associate Dean for Academic
Affairs and Professor of Law, Elisabeth Haub School of
Law, Pace University
Philip J. Loree Jr., J.D., The Loree Law Firm, New
York, New York. Arbitration and arbitration-law counsel and author.
Professor Imre Stephen Szalai, Judge John D. Wessel
Distinguished Professor of Social Justice, Loyola University New Orleans College of Law

